HHS/OIG, Audit -"Review of Payments Made by Cahaba Government Benefit Administrators for Home Health Services Preceded by a Hospital Discharge,"(A-07-03-04021)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Payments Made by Cahaba Government Benefit Administrators
for Home Health Services Preceded by a Hospital Discharge," (A-07-03-04021)
March 17, 2004
Complete
Text of Report is available in PDF format (374 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Centers for Medicare and Medicaid Services (CMS) provides for a lower payment for home health services
rendered to beneficiaries discharged from an acute care hospital within 14 days immediately preceding admission to home
health care.  Based on a statistically valid sample, we estimate overpayments of approximately $5.6 million to home
health agencies (HHAs) were made by Cahaba Government Benefit Administrators (Cahaba) for fiscal year 2001 for claims that
did not meet this 14-day requirement.  These overpayments occurred because HHAs did not provide the necessary or correct
information to Cahaba, and Cahaba had not established adequate postpayment controls to detect HHA claims that were billed
incorrectly.  In addition to financial adjustments, we recommended that Cahaba provide education to HHAs to ensure
that beneficiary discharge data is completed accurately on patient assessment instruments.